                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

 Case Number: A03110073
                                                                                  11           Page 1 of 1



         We reviewed an allegation1that Current and Pending Support (CPS) declarations in proposals
         submitted to NSF from several different investigators from several different institutions
         contained inaccurate information. Assessment of CPS declarations in the proposals revealed
         inconsistencies in the information provided. These inconsistencies were deemed sufficiently
         serious for follow up in two cases.

         For the first s ~ b j e c tthe
                                     , ~ issue was inconsistent information regarding his support from an
         ongoing grant from another Federal agency, and discordant reports of effort associated with that
         grant and the proposed NSF grant. The subject's response letter explained his reasoning for the
         effort listed for each grant, citing a vagueness in the instructions and his year round efforts on the
         grants. The subject was reminded in a letter of the importance of providing accurate information.

         For the second ~ubject,~  evaluation revealed missing and inconsistent CPS information, even in
         pairs of proposals that were submitted only a short time apart. The subject admits to inaccuracies
         in his CPS declarations, but claims that CPS information is compiled and entered by his
         department, often at the last minute, in his absence from the campus, and in the face of an
         impending submission deadline. The director of the sponsored research office4confirms that
         institutional policy is not to review such information as submitted by the PI or the department.
         We sent a letter to the subject emphasizing the importance of providing accurate information in
         proposals submitted to NSF, and we sent a letter to the director of the sponsored research office
         to remind him of their certification responsibilities.

         With no substance established for the allegation of purposeful submission of misinformation, no
         further inquiry is needed to protect NSF interests.

         Accordingly, this case is closed.




          1
              redacted
              redacted
              redacted
              redacted



NSF OIG Fonn 2 (1 1/02)
